                                            'I1,
                                                        I
                                            I
                                                                                  -   '




                                        I
                                                              NATIONAL SCIENCE FOUNDATION
                                                               OFFICE OF INSPECTOR GENERAL
                                                                 OFFICE OF INVESTIGATIONS
                                       1
                                        I                   CLOSEOUT MEMORANDUM
                                       11




Case Number: 10090016
                                       I

                                                                                          11   Page 1 of 1


                                   I
                                   11
        1. In September 2000, OIG received an allegation from
                                                              ,The allegation concerned
           questionablb accounting practices and misuse of grant funds by,-
                                                          ).
                               ,I
        2. OIG investigated the allegation. A review of the proposals and request for information
           from            resulted in a focus on accounting practices and internal data detailing use
           of funds anil work performed at      I. No criminal violations were identified at this time,
           and assistahce was requested from OIG audit.
                              11
                              I
        3. In August bf 2001, a scope of work for an audit was generated and on September 26,2001,
                                                    Company was contracted to perform the audit on
                     I
           FPRI.     ;

                          11

        4. On Decerdber 17,2001 OIG personnel met with                          to review audit findings. It
           was detedkined that no questionable practices involving criminal violations had occurred at
           FPRI. ~ s j c i t e din the audit report, internal controls are non existent, and accounting
           procedureb. are not in accordance with Generally Accepted Accounting Procedures.
                          i
                          I
        5. This inveitigation is closed. Further action may be taken by OIG audit staff as a result of
           the findings by
                          I




                      1                         Agent         Attorney           Supervisor           AIGI

 Sign i date     g&                                ~/.b
